October 21, 2008

MEGAN J. BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2008 Eastern Area SmartPay Purchase Card
         Program (Report Number FF-AR-09-002)

This report presents the results of our audit of the SmartPay Credit Card purchases by
personnel in the Eastern Area Office (Project Number 08BD006FF006). This audit is
part of the Fiscal Year 2008 Financial Installation Audits we announced on August 14,
2007. See Appendix A for additional information about this audit.

Conclusion

Generally, cardholders supported their SmartPay purchases and complied with Postal
Service policies and procedures. We examined 184 judgmentally selected
transactions1 totaling $174,132 and identified issues with 25 purchases (13 percent)
totaling $26,745. We identified 13 purchases from unauthorized vendors, six meal
expenses where the business need was not documented, five purchases where eBuy
authority was improperly delegated, and $1,538 of charges not supported by receipts.
These transactions are considered unrecoverable unsupported questioned costs.2
Additionally, we examined reconciliations for 73 purchase card statements and
identified that cardholders did not properly review and reconcile 14 (19 percent) of them,
worth $30,575. Of that $30,575, we consider $9,826 as disbursements at risk.3 We will
report these monetary and non-monetary impacts in our Semiannual Report to
Congress. See Appendix B for our calculation of monetary and non-monetary impacts.




1
  See Appendix A for a discussion of our rationale for selecting transactions.
2
  Unsupported costs are costs we question only because of missing or incomplete documentation or failure to follow
required procedures.
3
  Dollar value of disbursements made where employees did not always follow Postal Service internal controls and
processes.
Fiscal Year 2008 Eastern Area SmartPay                                                       FF-AR-09-002
 Purchase Card Program



Procedures for Selecting Vendors Need Improvement

Cardholders did not always purchase Postal Service-licensed merchandise. Three
cardholders made 13 purchases totaling $13,342 from unlicensed vendors and did not
have sufficient justification for using unlicensed vendors. Employees should confirm4
that merchandise that has a trademark, stamp, design, or other image owned by the
Postal Service purchased for use in their office or otherwise as part of their employment
is the Postal Service’s “officially licensed merchandise.” In addition, cardholders should
purchase merchandise featuring Postal Service trademarks from officially licensed
vendors.5 Cardholders misunderstood the requirements and, generally, were not fully
aware of the requirements to use approved vendors and justify exceptions. The Postal
Service cannot safeguard the value of its trademarks, stamp images, and other pictorial
images when using unlicensed vendors.

We recommend the Vice President, Eastern Area Operations:

1. Reinforce to and clarify for cardholders the requirement to use officially licensed
   product manufacturers or distributors, or to document justifications for exceptions.

Procedures for Justifying Meal Purchases Need Improvement

Cardholders did not always justify the business need for providing meals. Two
cardholders made six purchases worth $10,057 for meals provided either before
managers scheduled meetings to begin or after they adjourned the meetings.
Managers should schedule business meetings to preclude overlapping meal periods, or
clearly state in the purchase request the business necessity for continuing meetings
through meal periods.6 Cardholders stated they were unaware of the requirement to
provide a business reason on the requisition for continuing meetings through the meal
period. When employees do not follow policies, there is an increased risk the Postal
Service could incur unnecessary expenses.

We recommend the Vice President, Eastern Area Operations:

2. Inform cardholders of the requirement to justify the business need for continuing
   meetings through the meal period in the purchase request.




4
  Administrative Support Manual, Issue 13, Section 662.1, July 1999 (updated with Postal Bulletin revisions through
March 29, 2007).
5
  Postal Bulletin 22082, August 8, 2002, pages 4-6.
6
  Management Instruction FM-640-2001-4, Payment for Meals and Refreshments, page 2, September 24, 2001.


                                                          2
Fiscal Year 2008 Eastern Area SmartPay                                                        FF-AR-09-002
 Purchase Card Program



Monthly Reconciliation Procedures Need Improvement

Cardholders and approving officials did not always follow monthly reconciliation
procedures. Specifically:

    •    Four cardholders signed, but did not date, 11 purchase card statements totaling
         $17,026.7

    •    Two approving officials did not sign and date two statements totaling $1,953
         within 30 days from the statement date.8

    •    One cardholder submitted a statement for $11,595 on the last day of the
         reconciliation period and the statement was not reconciled within 60 days. The
         cardholder was missing $1,538 in receipts and did not properly reconcile the
         statement. The approving official appropriately refused to sign the statement
         until the cardholder provided the missing receipts and reconciled the statement.
         The Postal Service cannot dispute transactions that are more than 60 days from
         receipt of the statement of account. As a result, we consider $9,826 of the
         statement to be disbursements at risk9 and the missing receipts represent $1,538
         in unrecoverable unsupported questioned costs.

Cardholders should certify the statement of account after review and reconciliation by
signing and dating the certification statement.10 Cardholders and approving officials
should also complete all reconciliation activities no later than the 18th of the month for
the previous month’s card activity.11 Cardholders stated they did not date the bank
statements because they were not aware of policy related to the modified bank
statements.12 The approving officials did not timely reconcile the bank statement due to
untimely receipt of cardholder documentation. Unauthorized or inaccurate transactions
could go undetected when cardholders and approving officials do not reconcile bank
statements.

We recommend the Vice President, Eastern Area Operations:

3. Inform cardholders and approving officials of the requirement to sign, date, and
   reconcile bank statements by the 18th of the month.

7
  Approving officials certified the statements in 60 days; therefore, we do not consider the amounts disbursements at
risk.
8
  Handbook AS-709, Credit Card Policies and Procedures for Local Buying, Section 421.d, October 2003 (updated
through October 26, 2006).
9
  Statement value net of unrecoverable unsupported questioned costs for delegated eBuy approval and missing
receipts.
10
   Handbook AS-709, Section 421.d.
11
   Officer Memorandum of Policy GSA Smart Pay Purchase Card Reconciliation Process Time Change,
January 4, 2008.
12
   The modified bank statements did not have a date section for cardholders to complete.


                                                          3
Fiscal Year 2008 Eastern Area SmartPay                                                       FF-AR-09-002
 Purchase Card Program



Management’s Comments

Management agreed with our findings, recommendations, and monetary and
non-monetary impacts and issued a memorandum dated October 8, 2008, to SmartPay
cardholders and approving officials reinforcing Postal Service requirements. See
Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to recommendations 1, 2, and 3, and the corrective actions
should resolve the issues identified in the report.

Procedures for Delegating eBuy Authority Need Improvement

In an effort to expedite the eBuy process, an officer delegated their authority to approve
purchases in the eBuy system. Specifically, two cardholders made five purchases for
alcohol totaling $1,808 that were not approved by an officer in eBuy. An officer can
delegate their authority for certain types of purchases, but Postal Service policy is
specific in limiting the approval of alcohol purchases to officers only.13 Even though
there was no intent to misrepresent the officer’s approval authority, the eBuy system did
not contain adequate documented evidence to support policy compliance. Although the
officer attended the events and verbally approved the purchase in advance, the
responsible officer delegated the eBuy authority to another manager so purchase
requests would be completed more timely. Cardholders should state in their purchase
requests that the request includes beer and wine. During the audit, the officer took
immediate corrective action by removing the delegation in eBuy. Accordingly, we are
not including a recommendation for this finding.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Kevin
Ellenberger, Director, Field Financial – East, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

13
     Supply Management Infrastructure Purchase Card Frequently Asked Questions, July 2008.


                                                         4
Fiscal Year 2008 Eastern Area SmartPay       FF-AR-09-002
 Purchase Card Program




cc: Susan M. Brownell
    Lynn Malcolm
    Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Susan A. Witt
    Eric R. Faber
    Mark F. Tappe
    Katherine S. Banks




                                         5
Fiscal Year 2008 Eastern Area SmartPay                                               FF-AR-09-002
 Purchase Card Program


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Since November 1991, the Postal Service has used the government-wide Commercial
Credit Card Program administered by the General Services Administration. The current
contractor is U.S. Bank, Minneapolis, Minnesota, and the card company is VISA®. The
program within the Postal Service is called the SmartPay Purchase Card Program,
which Supply Management and Finance cosponsor. The Postal Service pays no
administrative fees for the services U.S. Bank provides and earns refunds based on the
aggregate volume of Postal Service transactions. Until recently, the purchase card was
commonly referred to as the International Merchant Purchase Authorization Card
(IMPAC). This was a registered U.S. Bank trademark name, but the bank no longer
uses it.

When eBuy or other consolidated Finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single purchase card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the purchasing
guidelines for approved expenditures set by the Postal Service in Handbook AS-709
and various manuals, handbooks, management instructions, and locally issued
guidance. This guidance requires cardholders to maintain documentation, including
approved purchasing requests, sales and credit drafts and receipts, and delivery
documentation. In addition, guidance issued January 4, 2008, requires cardholders to
maintain documentation supporting the timely review of monthly statements by
cardholders and approving officials.14

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if SmartPay Purchase Card Program
purchases were supported and complied with Postal Service policies and procedures.
To accomplish this objective, we selected all transactions using the IMPAC-Report
Builder from the Accounting Data Mart for the Eastern Area’s finance numbers. This
approach resulted in a universe of 541 SmartPay Purchase Card purchase transactions
totaling $283,897. Our transactions included only those cardholders assigned to the
Eastern Area. We selected the sample of area transactions based on risk factors such
as type of purchases (i.e., meals and gift cards) and vendors. Specifically, we
judgmentally selected transactions that were either over $9,000, restricted, made on the
weekend, or for purchases of pilferable items. Using these risk factors, we selected 184



14
  Officer Memorandum of Policy GSA Smart Pay Purchase Card Reconciliation Process Time Change,
January 4, 2008.
                                                    6
Fiscal Year 2008 Eastern Area SmartPay                                           FF-AR-09-002
 Purchase Card Program


transactions totaling $174,132 made from July 2007 through July 2008 by 14
cardholders.

We conducted this financial audit from July through October 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objective.
We believe the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objective. We discussed our observations and
conclusions with management officials on September 4, 2008, and included their
comments where appropriate.

We relied on data obtained from the Postal Service’s Enterprise Data Warehouse
Accounting Data Mart, and performed specific internal control and transaction tests on
this system’s data to include tracing selected purchase transactions to supporting
documentation. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. Finally, we
interviewed supervisors and employees and observed operations.

PRIOR AUDIT COVERAGE

                                                                      Non-
                              Report          Final      Monetary   Monetary
       Report Title           Number       Report Date    Impact     Impact           Report Results
Fiscal Year 2008 Great      FF-AR-08-287    9/26/2008    $38,412    $37,808    Cardholders made
Lakes Area SmartPay                                                            purchases without
Purchase Card Program                                                          documenting the business
                                                                               necessity for working meals;
                                                                               and cardholders and
                                                                               approving officials did not
                                                                               follow monthly reconciliation
                                                                               procedures. Finally,
                                                                               cardholders did not have a
                                                                               completed SmartPay Credit
                                                                               Card Program Cardholder
                                                                               Accountability
                                                                               Acknowledgment form on
                                                                               file.
Fiscal Year 2008 Western    FF-AR-08-286    9/25/2008    $57,712      N/A      Cardholders made
Area SmartPay Purchase                                                         purchases without
Card Program                                                                   documenting the business
                                                                               necessity for working meals
                                                                               and made purchases from a
                                                                               vendor that was not listed on
                                                                               the national contract list.




                                                   7
Fiscal Year 2008 Eastern Area SmartPay                                                   FF-AR-09-002
 Purchase Card Program




Fiscal Year 2008 Pacific Area      FF-AR-08-281    9/12/08       $20,215     $3,360    Cardholder purchases did not
SmartPay Purchase Card                                                                 include documentation
Program                                                                                supporting the business
                                                                                       necessity for working meals;
                                                                                       included payments for state or
                                                                                       local sales taxes; and did not
                                                                                       document non-cash award
                                                                                       transactions in the eAwards
                                                                                       system. Further, cardholders
                                                                                       and approving officials did not
                                                                                       follow monthly reconciliation
                                                                                       procedures.
Fiscal Year 2008 Southeast         FF-AR-08-279    9/8/08          N/A        N/A      We did not identify any control
Area SmartPay Purchase Card                                                            and compliance issues with the
Program                                                                                Southeast Area’s SmartPay
                                                                                       Purchase Card Program.
                                                                                       Purchases were made in
                                                                                       accordance with Postal Service
                                                                                       procurement policies.
Fiscal Year 2008 Capital Metro     FF-AR-08-270   8/22/2008        N/A        N/A      Cardholders and approving
Area SmartPay Purchase Card                                                            officials did not follow monthly
Program                                                                                reconciliation procedures.
Fiscal Year 2007 Financial         FF-AR-07-019   11/1/2007      $11,056      $0       Cardholders made 76 purchases
Installation Audit – SmartPay                                                          totaling $31,435 for
Purchase Card Program –                                                                unauthorized and unsupported
Pittsburgh District, Pittsburgh,                                                       purchases, telecommunication
Pennsylvania                                                                           invoices paid with the purchase
                                                                                       card, gift card purchases not
                                                                                       entered into eAwards,
                                                                                       purchases where cardholders
                                                                                       provided vendors with the
                                                                                       Express Mail® corporate
                                                                                       account number, and business
                                                                                       meals.
SmartPay Purchase Card Use         FF-AR-07-014   9/29/2007      $127,393   $181,908   Cardholders did not prepare or
by Postal Service Officers                                                             maintain proper documentation
                                                                                       for purchases and did not obtain
                                                                                       proper approval for transactions.
                                                                                       Also, cardholders and approving
                                                                                       officials did not follow monthly
                                                                                       reconciliation procedures.



These reports identified various internal control and compliance issues, such as
unapproved, unsupported, or unauthorized purchases. Further, as stated in the above
table, we identified a common issue related to reconciliation procedures, which we also
found in this audit.




                                                             8
Fiscal Year 2008 Eastern Area SmartPay                               FF-AR-09-002
 Purchase Card Program


      APPENDIX B: MONETARY AND NON-MONETARY IMPACTS SUMMARY


          Monetary Impact – Unrecoverable Unsupported Questioned Costs

            Number of
           Transactions                    Description              Amount
                13              Licensed merchandise from             $13,342
                                unauthorized vendors.
                   6            Meals provided before meetings          10,057
                                commenced and after meetings
                                adjourned.
                   5            Procedures for delegating eBuy           1,808
                                authority.
                   1            Unsupported conference expenses          1,538
                                (missing receipts).
                                TOTAL                                 $26,745




                       Non-Monetary Impact – Disbursements at Risk

            Number of
            Statements                     Description              Amount
                 1              Monthly reconciliation procedures      $9,826
                                need strengthening.




                                               9
Fiscal Year 2008 Eastern Area SmartPay                     FF-AR-09-002
 Purchase Card Program


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                         10
Fiscal Year 2008 Eastern Area SmartPay        FF-AR-09-002
 Purchase Card Program




                                         11
Fiscal Year 2008 Eastern Area SmartPay        FF-AR-09-002
 Purchase Card Program




                                         12
